No. 19-464

IN THE

VETERANS CONTRACTING GROUP, INC.,

Petitioner,

V.
UNITED STATES,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF SERVICE

I, Thomas G. Saunders, a member of the bar of this Court, hereby certify that, on
this 20th day of December, 2019, all parties required to be served have been served
copies of the Reply Brief for Petitioner in this matter by overnight courier to the
address below.
NOELJ. FRANCISCO
SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

THOMAS G. SAUNDERS
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
thomas.saunders@wilmerhale.com

